                        0


    UPDATING THE FOREIGN DISCLOSURE AND TECHNICAL
                 INFORMATION SYSTEM



Report Number 98- 157                           June 17, 1998




              Office of the Inspector General
                  Department of Defense
I
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 6048937 (DSN 664-8937) or FAX (703) 6048932 or visit the Inspector General,
DOD, Home Page at: WWW.DGDIG.OSD.MIL
Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8908
(DSN 664-8908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

         OAIG-AUD (ATTN: APTS Audit Suggestions)
         Inspector General, Department of Defense
         400 Army Navy Drive (Room 801)
         Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098;
by sending an electronic message to Hotline@?DODIG.OSD.MIL; or by writing the
Defense Hotline, The Pentagon, Washington, D.C. 20301- 1900. The identity of each
writer and caller is fully protected.




Acronyms

FORDTIS               Foreign Disclosure and Technical Information System
SPAN                  Security Policy Automation Network
                             INSPECTOR     GENERAL
                             DEPARTMENT   OF DEFENSE
                               400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202




                                                                             June 17, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AUDITOR GENE&U, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on Updating the Foreign Disclosure and Technical Information
         System (Report No. 98-l 57)


        We are providing this report for review and comment. The Army did not respond
to the drti report; however, comments from the Deputy Under Secretary of Defense for
Policy Support, the Navy, and the Air Force were considered in preparing the final report.
The complete text of the comments is in Part III.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Although comments were received from the Under Secretary of Defense for Policy
Support, those comments did not address the recommendations of the report. We request
that the Deputy Under Secretary of Defense for Policy Support and the Army provide
comments by August 17, 1998.

       We appreciate the courtesies extended to the audit staff Questions on the audit
should be directed to Ms. Evelyn R. Klemstine at (703) 604-9 172 (DSN 664-9 172)
(eklemstine@dodig.osd.mil) or Ms. Mary E. Geiger at (703) 604-9615 (DSN 664-9615)
(mgeiger@dodig.osd.mil). See Appendix F for the report distribution. The audit team
members are listed inside the back cover,




                                          David K. Steensma
                                   Deputy Assistant Inspector General
                                             for Auditing
                            OfTice of the Inspector   General,   DOD

Report No. 98-157                                                             June 17,1998
   (Project No. 7LG-0040)



                 Updating the Foreign Disclosure and Technical
                              Information System

                                    Executive Summary

Introduction. The Secretaries of Defense and State have designated the National Military
Information Disclosure Policy Committee as the central interagency authority within the
Executive Branch of the U.S. Government responsible for formulating, promulgating,
administering, and monitoring the National Disclosure Policy. The Security Policy
Automation Network provides organizations the ability to communicate and coordinate
with DOD organizations on foreign disclosure, export control, and international arms
control and cooperation subjects. The Foreign Disclosure and Technical Information
System (FORDTIS), which resides on the Security Policy Automation Network, assists
the U.S. Government in meeting its national security objectives by providing a historical
database. DOD Directive 5230.11, “Disclosure of Classified Military Information to
Foreign Governments and International Organizations,” and DOD Instruction 5230.18,
“The DOD Foreign Disclosure and Technical Information System,” require DOD personnel
to record in FORDTIS releases of and denials of classified military information.

Audit Objectives.      The overall audit objective was to determine whether technology
transfer policies and procedures in DOD adequately prevent the unauthorized release of
United States technical information. The specific audit objective for this segment was to
determine whether the DOD Components entered in FORDTIS disclosures and denials of
classified military information, We also reviewed the management control program as it
related to the audit objective.

A future segment of the audit will determine whether technology transfer policies and
procedures of the Military Departments are adequate to prevent the unauthorized release
of technical information. The result of that objective will be discussed in a later report.

Audit Results. The Military Departments did not enter all disclosures and denials of
classified military information into FORDTIS. As a result, the FORDTIS did not provide
the National Milita Information Disclosure Policy Committee and all FORDTIS users a
complete database r or making policy decisions concerning future releases of classified
military information to foreign countries. For details of the audit results, see Part I. See
Appendix A for details on the management control program.

Summary of Recommendations.            We recommend that the Under Secretary of Defense
for Policy and the Military Departments assign a high priority to the entry of disclosure
decisions into the classified military informatron database and dedicate the necessary
resources to meet the reporting requirements of DoD Directive 5230.11 and DOD
Instruction 5230.18. We also recommend that the Under Secretary and the Military
Departments monitor actions taken by subordinate commands to ensure that classified
military information reporting requirements are met. In addition, we recommend that the
Under Secretary report the incomplete classified military information database as a
material management control weakness.

Management Comments. Although the Office of the Under Secretary of Defense for
Policy Support concurred with the report’s finding, its comments did not address the
report’s recommendations. The Navy and the Air Force concurred with the report’s
recommendation and initiated corrective actions to include quarterly reporting
requirements. The Army did not comment on the draft report. A discussion of
management comments is in Part I and the complete text is in Part III.

Audit Response. We request that the Under Secretary of Defense for Policy Support and
the Army provide comments to the final report by August 17, 1998.




                                     ii
Table of Contents
Executive Summary                                                           i

Part I - Audit Results

      Audit Background                                                      2
      Audit Objectives                                                      3
      Classified Military Information Database                              4

Part II - Additional Information
      Appendix A. Audit Process
        Scope and Methodology
        Management Control Program
      Appendix B. Year 2000 Compliance
      Appendix C. Categories of Classified Military Information
      Appendix D. Classified Military Information Cases Reported by
                  Organization
      Appendix E. Sample of a Classified Military Information Case Form
      Appendix F. Report Distribution
                                                                           :98
                                                                           21

Part III - Management Comments
      Offkk;Lft&Deputy     Under Secretary of Defense for Policy Support

      Department of the Navy Comments                                      ;“6
                                                                           28
      Department of the Air Force Comments
Part I - Audit Results
Audit Background
    National Disclosure Policy-l.     The National Disclosure Policy-l, “National Policy
    and Procedures for the Disclosure of Classified Military Information to Foreign
    Governments and International Organizations,” October 1, 1988, sets specific
    criteria and conditions that must be met before a decision is made to release
    classified military information to foreign governments and international
    organizations. The policy states that all departments and agencies responsible for
    implementing the National Disclosure Policy will report their disclosure actions to
    the National Military Information Disclosure Policy Committee (the Disclosure
    Committee). The National Disclosure Policy-l was issued by the then Secretary of
    Defense with the concurrence of the then Secretaries of Energy and State and the
    Director of the Central Intelligence Agency.

    Disclosure Committee. The Secretaries of Defense and State have designated the
    Disclosure Committee as the central interagency authority within the Executive
    Branch of the U.S. Government responsible for formulating, promulgating,
    administering, and monitoring the National Disclosure Policy. The Disclosure
    Committee is composed of general and special members. General members
    include representatives from the Offices of the Secretaries of Defense, State,
    Army, Navy, and Air Force and from the Office of the Chairman Joint Chiefs of
    Staff. General members have a broad interest in all committee operations. Special
    members are those who have a significant interest in some, but not all aspects of
    committee operations. Special members include representatives of the Central
    Intelligence Agency, the Defense Intelligence Agency, and the Department of
    Energy.

    Security Policy Automation Network. The Security Policy Automation
    Network (SPAN) provides DOD and non-DOD organizations the ability to
    communicate and coordinate with DOD organizations on foreign disclosure, export
    control, and international arms control and cooperation subjects. SPAN consists
    of DOD-wide communications classified as SECRET and separately supported
    unclassified communications. The classified network supports about
    650 microcomputer workstations at over 120 or anizations located throughout the
    Office of the Secretary of Defense, the Joint St & the Military Departments,
    Defense agencies, and selected organizations external to DOD. The unclassified
    network supports about 160 sites at foreign embassies in Washington, DC; defense
    industry; and U.S. embassies overseas. SPAN is managed by the Office of the
    Deputy Under Secretary of Defense for Policy Support, Policy Automation
    Directorate. In FY 1997, about $1.6 million was expended to operate SPAN.
    SPAN provides connectivity to five operational systems: the Foreign Disclosure
    and Technical Information System (FORDTIS), the Foreign Visits System, the
    U.S. Visits System, the SPAN Decision Support System, and the National
    Disclosure Policy System. Appendix B includes a discussion on SPAN Year 2000
    compliance.
           Foreign Disclosure and Technical Information System. The Military
           Departments and Defense agencies are required to report disclosure decisions in
           accordance with the procedures published for FORDTIS. FORDTIS assists the
           U.S. Government in meeting its national security objectives by providing a
           historical database. FORDTIS consists of the following four fknctional databases.

                  o The classified information database contains records of actions taken on
           proposals to disclose or deny classified military information to foreign
           governments and international organizations.
                   o The National Disclosure Policy Exceptions database contains records of
           actions by the Disclosure Committee concerning approvals and denials of requests
           for exceptions to the National Disclosure Policy.

                   o The Munitions License database contains records of actions taken by
           DOD to recommend approval, denial, or modification of 1iFenseapplications to
           export items or technical data on the U.S. Munitions List.

                   o The Commodity Control List database supports the review of
           applications for exports controlled by the Export Administration Regulation.

           The FORDTIS provides high-level decisionmakers and analysts a dedicated
           automated system to facilitate decisions on transfers of information, munitions, and
           technology to foreign governments and international organizations.


Audit Objectives
           The overall audit objective was to detetine whether technology transfer policies
           and procedures in DOD adequately prevent the unauthorized release of United
           States technical information. The specific audit objective for this report was to
           determine whether the DOD Components entered into FORDTIS disclosures and
           denials of classified military information. We also reviewed the management
           control program as it related to the audit objective.

          A fbture segment of the audit will determine whether the Military Departments’
          technology transfer policies and procedures are adequate to prevent the
          unauthorized release of technical information. The result of that objective will be
          discussed in a later report. See Appendix A for a discussion of the scope and
          methodology, our review of the management control program, and a summary of
          prior coverage related to the audit objective.




l   A list of articles, services, and related technical data designated as defense articles and
    defense services.




                                                  3
            Classified Military Information Database
            The Military Departments did not enter all disclosures and denials of
            classified military information into FORDTIS. The condition occurred
            because the Military Departments had not complied with DOD
            Directive 5230.11 and DOD Instruction 5230.18 because of insufficient
            management attention. As a result, the FORDTIS did not provide the
            Disclosure Committee and all FORDTIS users a complete database for
            making policy decisions concerning future releases of classified military
            information to foreign countries.


Policy Requirements
    DOD Directive 5230.11. DOD Directive 5230.11, “Disclosure of Classified
    Military Information to Foreign Governments and International Organizations,”
    June 16, 1992, establishes the responsibilities and procedures for the disclosure of
    classified information to foreign governments. The Directive defines which
    government officials are responsible for determining releasability, the assurances
    that must be met before release can occur, and reporting requirements for the
    releasing agency. The Directive also states that it is the responsibility of
    DOD Components to ensure that their disclosure decisions are entered into the
    FORDTIS .

    DOD Instruction 5230.18. DOD Instruction 5230.18, “The DOD Foreign
    Disclosure and Technical Information System,” November 6, 1984, provides
    policy, procedures, and responsibilities for the implementation of FORDTIS. The
    Instruction states that FORDTIS is to provide DOD with an automated system to
    assist decisionmakers and analysts in coordinating, reaching decisions, and
    reviewing proposals to release classified military information (classified
    information) and technology to other nations and international organizations.
    Classified information is defined as U.S. defense information or material that
    requires protection against unauthorized disclosure in the interests of national
    security and is limited to three security classifications: TOP SECRET, SECRET,
    and CONFIDENTIAL and can be subdivided into eight categories
    (see Appendix C). The Instruction defines a classified information case as a
    request received from a foreign government or international organization or
    proposed by a DOD Component. The cases are active in the FORDTIS tracking
    and assignment system until completed, when they are closed and entered in the
    classified information historical database. The Instruction requires the DOD
    Component that makes the disclosure decision to enter cases with the following
    types of classified information into FORDTIS:

           o classifkl information, documentation and material that is disclosed
    pursuant to a foreign military sale, a loan, or grant of equipment;

            o classified information disclosed or denied pursuant to a request from a
    foreign government or international organization;


                                         4
              o classified information disclosed pursuant to a U.S. request and
     significant denials of U.S. requests; and
              o significant disclosures and denials. Significant disclosures are defined as
     those containing TOP SECRET information, involving a first of its kind disclosure,
     establishing precedent, deriving from an exception to the National Disclosure
     Policy, or re resenting a noteworthy disclosure decision in the judgment of the
     reporting 0 fl!cial.
     DOD Manual 5230.18-M.         DOD Manual 5230.18-M, “The Foreign Disclosure
     and Technical Information System User Manual,” July 1985, assigns
     responsibilities and prescribes procedures for entering data, accessing data bases,
     and obtaining reports from FORDTIS. Classified information is reported to the
     database by creation of a new case on an interactive terminal or by submission of a
     DD Form 1822, “Report of Disclosures or Denial of U.S. Classified Military
     Information.” Organizations having disclosure authority, but not having access to
     an interactive terminal use this form.


Reporting Disclosures and Denials
     The Military Departments did not enter all disclosures and denials of classified
     information into FORDTIS. The Office of the Deputy Under Secretary of Defense
     for Policy Support, Policy Automation Directorate, provided an activity report
     showing the number of active or closed classified information cases that DOD
     organizations reported. The following table summarizes the DOD Components by
     calendar year.

                        Classified Information         Cases Reported

                                                                         Percent Change
      DOD Comoonent’                        1993         1996     m2      1995 to 1997
      Ar-mY                                   498         431      292          (41)
      Navy                                  1,032         859      333          (68)
      Air Force                               211         219      180          (15)
      Defense Intelligence Agency                635        589    705           11
      other                                 2           1         1             (50)

        Total                               2,378       2,099     1311

      ’ A. breakdown
            .        by DOD Component of the reported classi6ed information cases

      * ~~YZf~~             1997 arc not thl.     As ofDccembex 30, 1997, not all
        activities had entered all 1997 cases.




    The activity report listing indicated that decisions reportable on requests for the
    disclosure of classified information by the Military Departments decreased from
                                                  5
Classified Military Information   Database


       1995 through 1997. The largest decreases were for the Army and the Navy.
       Reported Army decisions on the requests for classified information decreased by
       41 percent and the decisions reported by Navy decreased by 68 percent. The Air
       Force decreased 15 percent and the Defense Intelligence Agency increased
       11 percent over the 3-year period. The decreases indicated by the activity report
       alone is not evidence of a problem.

       Questionnaires. Foreign disclosure personnel in the Military Departments were
       not inputting all disclosures and denials of requests for classified information into
       the FORDTIS. The classified information requests entered into the FORDTIS by
       the Military Departments included requests reIated to foreign military sales as well
       as intelligence data. The jurisdiction over which a command has authority
       determines the type of classified information entered by that command. We sent
       questionnaires to foreign disclosure personnel identified by the
       Military Departments to determine whether those individuals provided input to
       FORDTIS. As of February 6,1998, a total of 229 questionnaires were returned by
       the Army, Navy, and Air Force. Of the 229 questionnaires returned by Military
       Department personne!,_ 126 of the respondents indicated that they had foreign
       disclosure responsibilmes. Of the 126 foreign disclosure personnel that completed
       questionnaires, only 70 (56 percent) indicated they provided input into FORDTIS.
       However, we were unable to determine whether those foreign disclosure personnel
       answering the questionnaire had a requirement to input into FORDTIS. If a
       foreign disclosure officer did not have the authority to release classified
       information, there was no reason to provide input into FORDTIS. We, therefore,
       visited eight sites and found that only two sites reported entering the required
       information into FORDTIS.

              Army. The Army failed to enter ah requests for classified information into
      the FORDTIS. We visited the U.S. Army Aviation and Missile Command and
      contacted the U.S. Army Training and Doctrine Command. Personnel at the U.S.
      Army Aviation and Missile Command stated that classified information releases
      and denials were entered into the FORDTIS. However, they indicated that
      entering the cases into FORDTIS after the disclosure decisions were made was
      time-consuming and as a result the entering of cases was not up to date. Personnel
      at the U.S. Army Training and Doctrine Command stated that requests for
      disclosures and decisions on requests for classified information were not entered
      into the database because of a lack of personnel resources. The office responsible
      for decisions on requests for classified information had been reduced from 12
      individuals to 2, and updating the FORDTIS was only one of many duties
      perfOlY&.


              Navy. The Navy failed to enter all decisions on the requests for classified
      information into the FORDTIS. We visited the Naval Air Systems Command, the
      Navy International Programs O&x, and the Naval Sea Systems Command.
      Personnel at the Naval Air Systems Command stated that there were about 12
      releases of classified information per month. Also, ahhough they were aware of
      the reporting r uirement, they drd not enter decisions on the request for the
      release of classiez ed information into the database because of a lack of personnel
      resources. The Naval Sea Systems Command stated that it forwarded decisions on
      requests for classified information to the Navy International Programs Office for
      entry into the FORDTIS. However, personnel at the Navy International Programs
                                             6
                                    Classified Militarv Information    Database


    Office did not agree that they should be inputting Naval Sea Systems Command
    releases into the database. Bather, personnel stated that they entered decisions
    only on requests for which they rendered a decision, not decisions made by the
    other naval commands.
             Air Force. The Air Force failed to enter all decisions on the requests for
    classified information into the FORDTIS. We visited the Aeronautical Systems
    Center and the Electronic Systems Center detachment at the Boeing Company. At
    the Aeronautical Systems Center, personnel stated that classified information cases
    were initiated by the Air Force Disclosure Office, Deputy Under Secretary of the
    Air Force (International Stirs) for input into the FORDTIS. Requests that
    originated at the Aeronautical Systems Center level were not entered into the
    database. Air Force Disclosure Office personnel stated that they had not entered
    any information into the FORDTIS for the Aeronautical Systems Center.
    Personnel at the Electronic Systems Center detachment at the Boeing Company
    were not recording decisions on the requests for classified information in the
    database. That office completed 21 releases of classified information relating to
    the sale of the Airborne Warning and Control System to Japan from January 1995
    through July 1997 without entering those decisions into FORDTIS.

    Defense Intelligence Agency.      The Defense Intelligence Agency was entering
    decisions on requests for classified information. Personnel stated that cases were
    entered into the FORDTIS for historical purposes and as a system for tracking
    classified requests. In addition, the classified information database was used as a
    reference tool for expediting the decision process on requests for classified
    information by foreign countries. Disclosures and denials were strictly for
    intelligence documents. The Defense Intelligence Agency does not enter any
    document above SECRET into the database. All TOP SECRET releases are
    manually tracked. Personnel were dedicated by the Defense Intelligence Agency
    for the inputting of releases and denials.


Reporting Requirements
    The Military Departments had not complied with DOD Directive 5230.11 and DOD
    Instruction 5230.18 because of insufficient management attention. Visits to
    various organizations disclosed that even though the organization knew of the
    requirement to enter classified information into the FORDTIS classified
    information database, the information was not entered. When creating a case
    within the FORDTIS classified information database, the entering official is
    required to enter s ific information into the system (see Appendix E).
    Additional case *lJecotmation can be entered, but is not required when creating a
    case, The organizations indicated that updating the FORDTIS was one of many
    duties that were to be performed. U.S. Army Aviation and Missile Command
    foreign disclosure personnel stated that each disclosure and denial took from 15 to
    20 mmutes to enter into FORDTIS. We recognize that the amount of time will
    vary based on the amount of information to be processed. However, as a result of
    reduced staffing levels at U.S. Army Aviation and Missile Command and other
    organizations, the entry of releases of and denials of classified information was
    given a low priority. Further, personnel in the Office of the Deputy Under

                                         7
Classified Military Information   Database


       Secretary of Defense for Policy Support stated that when FOPDTIS was
       established the Military Departments were given personnel to perform the data
       entry required. However, because of personnel reductions those positions were
       eliminated or redesignated by the Military Departments.

       The Deputy Under Secretary of Defense for Policy Support recognized that
       decisions on requests for classified information were not entered into FORDTIS.
       In a December 6, 1996, memorandum addressed to the Military Departments, the
       Joint Staff, and the Defense Intelligence Agency, the Deputy Under Secretary of
       Defense for Policy Support stated that the foreign disclosure program is of vital
       importance in protecting classified information and in providing an efficient system
       to share classified information with friends and allies. The memorandum also
       reiterated that DOD Directive 5230.11 requires all DOD officials with disclosure
       authority to record their disclosure decisions in FORDTIS. That memorandum
       further explained that the objectives of the system can be met only if all disclosure
       officials comply with reporting requirements. The Military Departments still did
       not comply.


Users of the Database
       The FORDTIS did not provide the Disclosure Committee and all FORDTIS users
       a complete database for making policy decisions concerning future releases of
       classified information to foreign countries.

       Disclosure Committee.    One of the primary functions of the Disclosure
      Committee is to monitor and oversee the implementation of the National
      Disclosure Policy. The National Disclosure Policy establishes a framework for the
      approval or denial of classified information to foreign governments. Further, the
      National Disclosure Policy defines the maximum level of information that can be
      released. The principal means that the Disclosure Committee has to monitor and
      oversee the implementation of the National Disclosure Policy is the FORDTIS.
      However, the incomplete database severely limited the committee in performing its
      oversight function. The reporting of disclosure actions also assists the Disclosure
      Committee in making its annual report to the National Security Council on, among
      other things, an assessment of the effectiveness of the National Disclosure Policy.

      Other Users. One of the primary functions of the FORDTIS classified
      information database is to aid foreign disclosure officers in disclosure decisions.
      For example, a foreign disclosure officer can use the FORDTIS as a reference tool
      for a requested release of classified information from a country. Country X may
      request classified information on radar system 2. The foreign disclosure officer
      queries the FORDTIS to determine whether country X made any previous requests
      concerning that radar system. Ifthe results of the query indicate that a request was
      previously made and denied, the classi&d tiormatton case, maintained in the
      historical database, would also show the reasons for that denial. The foreign
      disclosure officer can also query the database to determine whether disclosures
      involving the requested information on radar system Z had ever been made to any
      country and whether such requests were denied or granted. Consequently, the
      foreign disclosure officer considers the reasoning for the release or denial of
                                             8
                                     Classified Militarv Information Database


    requested information when the current request is considered; and in some cases,
    such consideration can expedite a disclosure decision on the current query.
    However, because the FORDTIS contains incomplete information, users of the
    system cannot receive the benefits of the system as intended.


Summary
    The FORDTIS classified information database was not used to its full potential.
    By failing to enter disclosures and denials of requests for classified information into
    FORDTIS, decisionmakers did not have the required information to assist in
    making decisions on proposals to release classified information and technology.
    Past disclosures were the precedent governing future disclosures and decisions. In
    addition, the database was one of the only means the Disclosure Committee had to
    monitor the effectiveness of the National Disclosure Policy. If FORDTIS is to
    satisfy its purposes, then the reporting requirements of DoD Directive 5230.11 and
    DOD Instruction 5230.18 must be met. Reporting requirements will not be met
    unless sufficient management attention is provided to ensure database input. If in-
    house resources is the limiting factor, the use of contractor resources should be
    considered.


Management Comments on the Finding and Audit Response
    Department of the Air Force Comments. The Air Force concurred that all
    Service decisions on the request and release of classified military information were
    not documented in FORDTIS. The Air Force nonconcurred that noncompliance
    with DOD Directive 5230.11 and DOD Instruction 5230.18 was because of
    insufficient management attention. The Air Force stated that the Chief, Disclosure
    Division, was responsible for prioritizing the division’s assigned responsibilities
    and that a higher priority had been assigned to release decisions required to
    support operational requirements than administrative functions such as FORDTIS
    reporting.

    Audit Response. While we agree that FORDTIS reporting was largely an
    administrative function, by f&g to assign a higher priority with the reporting
    requirements of DoD Instruction 5230.18, the Air Force has indicated that
    compliance does not require management attention. DOD Instruction 5230.18
    states that the purpose of FORDTIS was to provide the DOD with an automated
    system to assist decision makers and analysts in reviewing, coordinating and
    reaching decisions on proposals to release classified information. As such, when
    receiving requests forwarded from foreign disclosure officers the Office of the
    Under Secretary of the Air Force (International AfGirs) can use the




                                          9
Classified Military Information   Database


       historical files of FORDTIS to reach decisions on those requests for classified
       information. Failure to input release decisions into FORDTIS results in not
       including those decisions in the historical files on which future decisions could be
       based.


Recommendations, Management Comments, and Audit
Response
      1. We recommend that the Under Secretary of Defense for Policy; the
      Deputy Chief of Staff for Intelligence, U.S. Army; the Director, Navy
      International Programs Office; and the Deputy Under Secretary of the Air
      Force (International Affairs):

               a. Assign a high priority to the entry of disclosure decisions into the
      classified military information database and dedicate the necessary in-house
      or contractor resources to meet the reporting requirements of DOD
      Directive 5230.11, “Disclosure of Classified Military Information to Foreign
      Governments and International Organizations,” and DOD
      Instruction 5230.18, “The DOD Foreign Disclosure and Technical
      Information System.”

              b. Monitor actions taken by subordinate commands to ensure that
      the classified military information reporting requirements are being met.

      Under Secretary of Defense for Policy Support Comments.         The Deputy Under
      Secretary of Defense for Policy Support concurred with the finding. The Deputy
      Under Secretary stated that over the years a number of reinforcement notices were
      sent to the Military Departments reminding them of their reporting requirements.
      The Deputy Under Secretary requested the Office of the Inspector General make
      the reporting of disclosure approvals and denials in the FORDTIS system an item
      for review in future audits and inspections.

      Army Comments.       The Army did not comment on a draft of this report.

      Navy Comments. The Navy concurred with the recommendation, and stated that
      the Navy International Programs Office will remind those Navy activities and
      individuals holding disclosure authority of the requirement to input disclosure
      decisions into the database. The Navy fkther stated that the Navy International
      Programs Ofke will obtain, on a quarterly basis, a report Corn the DOD
      FORDTIS office and conduct follow-up action as necessary.

      Air Force Comments.       The Air Force concurred with the recommendation, and
      stated that they were working with the software developers to ensure that
      meaningful capabilities were mcluded in the software update. In addition, the
      Air Force stated that interim guidance will be discussed at a disclosure conference
      scheduled for August 1998 and the new so&are will be fielded by the fall
      of 1998. The Air Force also plans to establish a quarterly reporting requirement
      after the new software is fielded.

                                             IO
                                Classified Militarv Information    Database


Audit Response.      The Office of the Inspector General, DOD, does not do
inspections and our audits are issue oriented and not broad based reviews at
Defense activities. Except for an issue oriented audit such as this one, the lack of
staff precludes review of the completeness of FORDTIS at DOD Components
during other audits. We note that the Navy and Air Force are setting up quarterly
reporting requirements related to the completeness of reporting information into
FORDTIS. The Deputy Under Secretary should consider establishing a
performance measure on the completeness of reporting information into the
FORDTIS system and haying the Military Departments report quarterly on the
performance measure.

We request that the Under Secretary of Defense for Policy and the Deputy Chief
of StaffU.S. Army provide comments on this recommendation in response to the
final report.

2. We recommend that the Under Secretary of Defense for Policy report the
incomplete classified military information database as a material
management control weakness until reporting requirements are met.

Under Secretary of Defense for Policy Support Comments. The Office of the
Under Secretary of Defense for Policy did not address this recommendation in
response to the draft report. We request that the Deputy Under Secretary of
Defense for Policy provide comments on this recommendation in response to the
final report.




                                     11
Part II - Additional   Information
Appendix A. Audit Process

Scope and Methodology

    We reviewed DOD policies and procedures related to the SPAN, the classified
    information database, and technology transfer. We reviewed the classified
    information activity report for calendar years 1995 through 1997 to aid in
    determining whether the Military Departments were entering information on
    decisions to release or deny requests for class&d information, as required. The
    report was prepared as of December 30, 1997. We mailed questionnaires to
    foreign disclosure officers in the Military Departments to determine whether they
    had access to FORDTIS and whether they were providing input to FORDTIS. In
    addition, we evaluated the Military Departments’ procedures to input decisions on
    requests for classified information. We also reviewed Year 2000 compliance
    issues for the SPAN, as discussed in Appendix B.

    We visited or contacted eight sites to determine whether they had data that should
    have been entered but had not been entered. We interviewed personnel within the
    Office of the Deputy Under Secretary of Defense for Policy Support, the Defense
    Intelligence Agency, the Army Aviation and Missile Command, the Army Security
    Assistance Command, the Army Training and Doctrine Command, the Naval Air
    Systems Command, the Naval Sea Systems Command, the Navy International
    Programs Office, the Office of the Deputy Under Secretary of the Air Force
    (International Affairs), the Aeronautical System Center, the Electronic Systems
    Center and its detachment, and the F- 16 System Program Office.

    Use of Computer-Processed Data. We relied on FORDTIS, maintained by the
    Office of the Deputy Under Secretary of Defense for Policy Support, Policy
    Automation Directorate. Our review of the FORDTIS classified information
    database did not cast doubt on the reliability of information contained within the
    system. However, during the audit, we discovered problems concerning the entry
    of data into the system that cast doubt on the completeness of the data contained
    within FORDTIS. Those problems are discussed in the body of the report. We
    believe that the opinions, conclusions, and recommendations in this report are valid
    and will help correct the problem with the completeness of the data contained in
    the system.

    Audit Type, Dates, and Standards.     We performed this program results audit
    from May 1997 through February 1998, in accordance with auditing standards that
    the Comptroller General of the United States issued, as implemented by the
    Inspector General, DOD. Accordingly, we included tests of management controls
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available upon request.




                                         14
Management Control Program
    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DoD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of controls.

    Scope of Review of Management Controls. We reviewed the adequacy of the
    DOD and Military Departments’ management controls to ensure that all
    decisions on the requests for classified information were entered into the
    FORDTIS. Specifically, we evaluated DOD and Military Department
    implementation of licks and procedures for the inputtmg of decisions on
    requests for classi f?ed information from foreign countries mto the FORDTIS.
    We reviewed management’s self-evaluations applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Military Departments as defied by
    DoD Directive 5010.38. The DoD and Military Departments’ management
    controls were not in place to ensure that disclosures and denials of requested
    classified information were entered into FORDTIS as required by
    DoD Directive 5230.11 and DoD Instruction 5230.18. All recommendations in
    this report, if implemented, will provide adequate controls for reporting
    disclosures and denials of classified information. A copy of the report will be
    provided to the senior officials responsible for management controls in the
    Office of the Secretary of Defense and the Military Departments.

    Adequacy of Management’s Self-Evaluation.          Officials within the Office of
    the Secretary of Defense and the Mili XFment             did. not identify the
    reporting of disclosures and denials of c sr led rnformauon as an assessable
    unit and, therefore, did not identify or report the material management control
    weakness identified by the audit. Command level compliance should be
    monitored on a continuing basis as part of command selfevaluations.




                                        15
Appendix B. Year 2000 Compliance
SPAN Compliance
    The Office of the Deputy Under Secretary of Defense for Policy Support, Policy
    Automation Directorate, has taken action to address Year 2000 compliance
    problems for the SPAN. In the Year 2000, automated information systems that
    are not Year 2000 compliant will have to be dusted for the way dates are
    recordedand computed. For the past severaldecades,systemstypicallyused two
    digits to represent the year, such as “97” representing 1997, to conserve electronic
    data storage and to reduce operating costs. With the two-digit format, however,
    the Year 2000 is indistinguishable from 1900. The calculation of dates is further
    complicated because the Year 2000 is a leap year, being divisible by 100 and 400,
    while the year 1900 is not. As a result of the ambiguity, system and application
    programs that use dates to calculate, compare, or sort could generate incorrect
    results when working with the years afler 1999.

    In April 1997, the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) issued the “DOD Year 2000 Management
    Plan.” According to the plan, DOD Components are responsible for renovating
    existing systems to fix the Year 2000 deficiency by December 1998. The Policy
    Automation Directorate has identified which SPAN systems are Year 2000
    noncompliant and prepared assessments. It is estimated that $2.3 million will be
    required to make the SPAN Year 2000 compliant. Compliance should be achieved
    by the end of FY 1998.




                                         16
Appendix C. Categories                    of Classified           Military
Information

    wtv        1 - Ornanization Trainine and Employment of Militw Forces
    Information of a general nature pertainin to tactics, techniques, tactical doctrine,
    and intelligence and counterintelligence %octrine and techniques.

    Q&norv 2 - Militarv Material and Munitions. Information on specific items of
    equipment already in production, or in service, and the information necessary for
    the operation, maintenance, and training. This category does not pertain to
    equipment that is in research and development.

    Cateaorv 3 - Annlied Research and Development Information and Material.
    Information related to design, experimental investigation into possible military
    applications, and fundamental theories; the category includes engineering data,
    operational requirements, concepts, and military characteristics required to adopt
    the item for production.
    Cateaorv 4 - Production Information. Information related to designs,
    manufacturing techniques, specifications, and such related information necessary to
    manufacture material and munitions.

    Catesrorv 5 - Combined Militarv Ooerations. Planning. and Readiness. Information
    necessary to plan, ensure readiness for, and provide support to the achievement of
    mutual force development goals or participation in specific combined tactical
    operations and exercises. The category does not include strategic plans and
    guidance or North American defense information.

    Cateaorv 6 - U.S. Order of Battle. Information pertaining to U.S. Forces in a
    specific area. In general, disclosures of this information are limited to those
    countries in which U.S. Forces are stationed or are in adjacent geographical areas.
   Category 7- North American Defense. Information related to plans, operations,
   programs, and projects, to include data and equipment, directly related to
   North American defense.

   Cateaorv 8 - Military Intelligence Mbrmation of a military character pertaining to
   foreign nations. The category of information does not include national intelligence
   or sensitive compartmented information under the purview of the Director of
   Central Intelligence.




                                         17
Appendix D. Classified Military Information
Cases Reported by Organization
                                                 1995    1996      1997
     Foreign Disclosure Office                    114      140       153
     Army Communications Electronic Command          1       0         0
     Army Material Command                           0      10         0
     Army Material Systems Analysis Center          26      13         0
     Army Missile Command                           67      76        16
     AmyResearchLab                               126       59        43
     ArmySecwityAffairsCmmand                        3       1         1
     Amy Training and Doctrine Command               1       0         0
     Chemical and Biological Defense Command        19       0         2
     National Ground Intelligence Center          131      131        77
     Strategic and Space Defense Command         10       1         A
        Army Total                                498      431       292

    Nnw
     Foreign Disclosure O&x                        626     505       284
     Marine Corps Headquarters                       0        0        1
     Naval Air Systems Command                       2        0        0
     Naval Explosive Ordinance Disposal            307      162        0
     Naval !%a Systems Command                       1        1        1
     Navy International Programs Office              0       74        0
     Office of Naval Intelligence                96      _ll7>
        Navy Total                               1,032     859       333

    Air Force
     Foreign Disclosure Oflice                       %    131          68
     National Air Intelligence Center            115     88        _lJ
        Air Force Total                            211    219        188

    DefenJe
     Foreign Disclosure Office                    619     549        670
     Foreign Visits O&e                          16      4035
        Defense Intelligence Agency Total         635     589        70s

    Other                                        2        --   1       1



    TOtal                                        2,378   2,899     1311




                                            18
Appendix E. Sample of a Classified Military
Information Case Form

    The following is a sample of a DD Form 1822, used to input classified information
    cases into the FORDTIS.




               REPORTOF DISCLOSUREOR                       OEUIAL OF US CLASSIFIED MILITACIV                             IUFOAMATIOW




                                                                                                                                   IT   IS NOT        NECES
          111    to DIJPLICATC              OTMfl[Tiiio~nrtrotd               IN       THE    CASC;        HO )Yf
                                                                                                                _ VER.
                                                                                                                    _        YOU    CAW         IINCLUDE      M
            WC         RfOUfft       YAS     RfCfIVfD           AND   THf    PIJRPOSC FOR                 THE RCPUCST           iLoNG          iiITt4    YHAT
         AS      BEEN        RfOUffftD.            NOtICf        HOY    THf    YORD   OREAIIS              ARE   nADf        IN   THIS         EXARPLE.
         fnf     nefa.         DO NOT       ADJUST       THE     FORn     ONCE    YOU  BEGIN               TYPING.

                                                           UE fIRS1         CEYUORD
                                                           ECOND       KSYYORD




          PART.    TMfN      YHfRf    WJST    Of    A REASON        HCRE   EXPLAINING       UWY   TME    DENIAL     UAS nAD
            ANY SPECIAL         KEnARKS      SnOuLD      DE CNTCRCD        WIICH UILL       nACf TWE CASE UNDERSTA
         ADLf   TO  SOnCONE        UNrAnfLXAR        UXTM       THE  DOCUnfNT       OR PUOCRAAI      OR ITS RfLATIONS
         P UITU    OYbJCR      PRoGRAns.        tnf   I*f0Rfl*TION         ncRf     Is VERY    XnPORfANt        IN  ASSISTI
          OTHER    ACTIVITICS         ThA?    RAY    BE    AACING      lISCLOSURC      lECISIOwS       THAT     ARC  RCLATf




                                                           MIS      DOCUMENT           nAY     DC    DIS~~IDU~ED             UITWOUT           RESTRICT

                                                                                       1~drcTloW            I~~#*~rr-s                     1    11   1
                                                                                                                         I
                                                                                   f     STECIIING         COnnITTff           -    JUNE       l2.

          HAVE         NOT    #EEN        APPROVED.            NO   FOREIGN        RtLtASC           IS    PtRflIlTtD.




       . . RRYllyuII                                   I                                                                                                      1




                                                                       19
Appendix E. Sample of a Classified Military Information Case Form


      The precedin form contains all information that can be entered on the
      DD Form 1852. The following items are required to be entered into FORDTIS
      as part of a classified information case.

            0   Item 1 - a one-line summary of the case.

            0   Item 2 - the classification of the case.

            0   Item 4 - the date of case closure.

            0   Item 5 - the requesting country.

            0   Item 6 - the release decision.

            0   Item 8 - the National Disclosure Policy Category Code.

            0   Item 10 - whether the disclosure is significant or not.

            0   Items 12 and 13 - the processing agency and office.

            0   Item 14 - whether any decompartmented intelligence information is
                contained in the case.

            0   Item 18 - a description of the case (no more than five lines).

            0   Item 20 - keywords.

            0   Item 21 - remarks (only if case was a denial).

            0   Item 22 - a line item entry describing each item or document covered
                by the case.




                                          20
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (International and Commercial Programs)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
  Deputy Under Secretary of Defense for Policy Support
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Deputy Chief of Staff for Intelligence
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Director, Navy International Programs Office
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Deputy Under Secretary of the Air Force (International Affairs)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, Defense Information Systems Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, Defense Security Assistance Agency
Inspector General, Defense Intelligence Agency




                                          21
Appendix F. Report Distribution


Non-Defense Federal Organizations                    and Individuals
Office of Management and Budget
General Accounting Office
      National Security and International Affairs Division
          Technical Information Center
Inspector General, Department of State

Chairman and ranking minority member of each of the following congressional committees
and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Atmed Services
   Senate Select Committee on Intelligence
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security
   House Permanent Select Committee on Intelligence




                                            22
Part III - Management   Comments
Office of the Under Secretary of Defense (Policy
Support) Comments




    mum                                                        18 May   1998

     MEMORANDUMFORDlRECTOR,READlNBSSANDuxf[sn~~T
                      DIRECWRATE, OFFICE OF THE DOD INSPECTOR
                      c%NERAL

     SURJBCE Audit Report on Uphting the Fore&n IXsclosurcand Tfcbnicd
             Infoma&Srprm(projbctNo.7LGooIo)

     Rkence:   Your-,            dad 18 Mad     1998, subjectu above



          WCrppnchtCtbeOppJItd~tO       cmmtansubjectdr8ttauditnport

     C0EUdgtbeF~~Diimd~ilInfarmuiaaSystcmCFORMIS).

     At&dldiSQPdkyrrspao#tOthCddtnport.




                                   24
Office of the Under Secretarv of Defense




  25
Department          of the Navy Comments




       SUBJECT: DOOIGDraft Report: Dpdatirq Tha E’or8iw
                Dbclomlre And !Pechaical Iaforvtlon systa
                (Xqxmt lk. 7U-00401 - Infomtion YroIandum
       REmnmcz?         (8) WIG   Report 7LG-0040of 18 March lSS*


              We have rmviwed   refumw    (A) ud cmwr With the
       fbUng8    uid re-time.           We have implunted
       nnagumt      control6 to corract the rbaUaa    by lnttructing
       Navy 100 to rrind there Wavy rctivitiea madindiridualr
       holding bisclomuo authority of Vn requkaent to input
       dirclosure decirloar Into tkn dltrbase.    nivy IP0 will
       obtain li report fm    th DODPomU Offhe on all MI d8t.a
       antered on a qurtuly      bui.r. Iav xl?0 will conduct follow-
       up action uieh the field rctivitirr    u ~wrury    bared on
       that nport.




                                         wIti*    J.   8cNAEd
                                         Deputy Auirtmt     suratrry
                                         of the  Navy
                                         ?lmalg,     Progra-bg,    ld
                                         Ouotuwr




       copy   to:
       Pm (311
       NAvxmGm (02)




                                   26
                                                 Dartment of the Navy Comments




SUDJECT:     Dorm      Draft   Neport:     Dpdatlng Tbo roreign
                      ArrdTechnicalInfoaationSystem
             Dlsclo~ure
             (Report     No.   1LC-0040)    -   Inforution   Memorandum

Blindcopy to:
COl4NAVAIRSYScoII,
               htuxent River ND
cnnNAvsErbSYsc~,
               Ilashington,
                          DC
CWSPwAU?YSCiM, Sm Diego,CR
IUVICP,    Philrdeiphir,        PA
CtXQWEODTECIIDIV,        bd.b~~   Mud,     ND
Imy IPO, W~Shhgton,DC
Department of the Air Force Comments

                             DEPARTMENT Oc THE AIR FORCE
                                    W-W




                                                                     15 uhYl998




     MEMORANDUMPOR ASSISTANTINspMJroR OENERALPOR AUDlTlNC-3
                          OPFICE OF THE INSPEcmR CiENERAL
                          DHPARTMENTOFDEFENSE

     FROM: SAPM




            7hi;irillreglyto~ llmnomh~ueatingtbc~~0ftheAir~
     (FiiidMmrpementladComprrdla~~provideAirPaa          cammtsaasubjcctqcxt.

           Asdhtrd,wehve     axrxwtdont&two~ng8dtbrrc-tiotulwllich
    ourof&e idrmtifiedintbe8ubjcctfqmft Therecommmts archndinthcnttdmenttothis
    mcmonadum. Naaeoftbesefindiqaorawmmdh~hadm-ertimati
    moearybatditwbicbnquidcuxdidonwithSAPIPMPF.             AstkAirForceofficcof
    p&q     qmsibilily,  SAMAD amcludcdtbnt no dditiod coocdjoptjon  witbin the Air Porcz
    irrupidfatbhrerpaue.




                                         28
                 .
     ent of the Au-   Force   Comments




29
30
Audit Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Of&e of the Assistant Inspector General for Auditing, DOD.

   Shelton Young
   Evelyn R. Klemstine
   Mary E. Geiger
   Robert Kienitz
   Kathryn Wilfong
   David Michehl
   Sean Keaney
